     Department of Homeland Security

     ��������������������������



 FEMA Should Recover $48.9 Million for Inadequate 

    Insurance Coverage for Holy Cross School, 

             New Orleans, Louisiana





OIG-14-10-D                           November 2013

                                    OFFICE OF iNSPECTOR GENERAL
                                        Department ofHomdand Security




                                                           NCV 2 2 2013


MEMORANDUM FOR:                     George A. Robinson
                                    Regional Administrator, Region VI
                                    Federal                           Agency

FROM:




SUBJECT:                            FEMA Should Recover $48.9 Million for Inadequate Insurance
                                    Coverage for Holy Cross School, New Orleans, Louisiana
                                    FEMA Disaster Number 1603-DR·LA
                                    Audit Report OIG-14·10-D

We are curren tly auditing Federal Emergency Management Agency {FEMA) Public Assistance
grant funds awarded to the Holy Cross School (Holy Cross), (Public Assistance Identification
                         1
Number 071-U1Z17-00). The Governor's Office of Homeland Security and Emergency
Preparedness (GOHSEP), a FEMA grantee, awarded Holy Cross the gross amount of
$89.3 million for damages resulting from Hurr icane Katrina, which occurred on August 29, 2005.
As table 1 shows, Holy Cross's insurance proceeds as of September 2012 reduced the gross
amount to a net award of $86.6 million. The award provided 100 percent funding for
16 projects-131arge and 3 small projects.

                                 Table 1. Gross and Net Award Amounts
                                    ' Gross Award                           Insurance                         Net Award
                 1---- --- J            ....:.A:!:m:.:O:.:U::;Il:,:.t_+__;_R:.::e:::
                                                                                 d:::U.::Ct:;:iO:::Il::.:S:__+-··   ~mount --
                    All Projects   .I    $89,346,449                        ($2,791,9841_                    $86,554,465




1
 We are auditing the gross amount of $89.3 million awarded before reductiOI'Is of $2.8 million for Insurance
setllements.
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

This memorandum advises you of an issue that requires your immediate attention. FEMA
should disallow $48.9 million of Holy Cross’ $86.6 million award because Holy Cross has not
obtained and maintained the required amounts of flood insurance, or obtained certification of
insurance from the State insurance commissioner to obtain an exemption from all or part of the
obtain-and-maintain insurance requirements (see Exhibit, Schedule of Holy Cross Projects
Questioned for Inadequate Flood Insurance Coverage).

We are conducting this performance audit pursuant to the InspectorfGeneralfActfoff1978, as
amended, and in accordance with generally accepted government auditing standards. Our
overall objective is to determine whether Holy Cross accounted for and expended FEMA Public
Assistance funds according to Federal regulations and FEMA guidelines. Because of the size of
the award, we have divided this audit into phases. At the conclusion of our audit, we will issue a
final audit report that may include additional findings and recommendations.


                                           BACKGROUND

Holy Cross operates as a private, non-profit school with a curriculum that covers grades 5–12.
Hurricane Katrina devastated the Holy Cross school buildings located in the Ninth Ward
neighborhood of New Orleans. In January 2006, Holy Cross opened a temporary campus; and,
in 2007, the Brothers of the Congregation of Holy Cross and their board of directors elected to
relocate the campus to the Gentilly neighborhood of New Orleans. Holy Cross constructed four
new buildings—an administration building, a middle school, a high school, and a central
services/student center building—using FEMA funding.

Holy Cross Did Not Obtain Required Flood Insurance Coverage

Holy Cross did not obtain $48.9 million of required flood insurance coverage for its replaced
disaster-damaged facilities, which is a condition for receiving Federal disaster assistance. As a
result, Holy Cross does not have adequate flood insurance coverage to meet Federal regulation
insurance requirements to protect it and taxpayers in future disasters.

Section 311 of the RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAssistancefAct, Public Law
93-288 as amended, requires applicants of disaster assistance to obtain and maintain such
types and extent of insurance as may be reasonably available, adequate, and necessary, to
protect against future loss to any property to be replaced, restored, repaired, or constructed
with such assistance. Federal regulations at 44 CFR 206.252(d) also require grant recipients to
obtain and maintain insurance in the amount of eligible disaster assistance as a condition of
receiving Federal funds. Grant recipients may also seek an exemption from insurance
requirements from their State insurance commissioner. FEMA also provides additional guidance
on the obtain-and-maintain requirement in its PublicfAssistancefGuide (FEMA 322, October
1999, p. 97). The guide states that (1) as a condition for receiving public assistance for a facility,


   www.oig.dhs.gov                                2                                   OIG-14-10-D
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security

an applicant must obtain and maintain insurance to cover that facility for the hazard that
caused the damage; and (2) such coverage must, at minimum, be in the amount of the
estimated eligible project costs for that structure before any reduction.

Based on the required amount of the flood-related eligible damage assistance FEMA
determined the required amount of obtain-and-maintain insurance was $52.9 million. Holy
Cross should have obtained and maintained $52.9 million in flood insurance or received an
exemption from insurance requirements from its State insurance commissioner.2 However,
Holy Cross obtained only $4.0 million in flood insurance, or $48.9 million less than the required
amount. Holy Cross completed construction on the high school and middle school in August
2009, completed the administration building in March 2010, and completed the central
services/student center in February 2011. Holy Cross should have increased its flood insurance
coverage as it completed these buildings or obtained an exemption with a certification of
insurance from the Louisiana insurance commissioner.

Holy Cross officials said that they intended to file for an insurance exemption, but delayed filing
because they were not certain of the process or how much flood insurance FEMA required.
However, uncertainty over how to proceed does not justify inaction given that Holy Cross
started occupying its new buildings 4 years ago—more than adequate time to obtain the
required flood insurance or insurance exemption. Further, each project worksheet clearly
identified the amount of flood insurance coverage that FEMA required for each building.
Therefore, FEMA should disallow as ineligible $48,879,429 for the uninsured portion of the new
buildings unless Holy Cross obtains the required insurance coverage or obtains an exemption.

Holy Cross officials also said they “obtained the maximum flood insurance available through the
National Flood Insurance Program (NFIP) for each building; however, the FEMA obtain-and-
maintain requirement sets forth substantially more flood insurance than what is available
through the NFIP.”3 In addition, Holy Cross officials said they have a pending application to the
Louisiana Insurance Commissioner seeking a certification that the insurance currently in place is
adequate and reasonable, but the application is still in process. Although Holy Cross may have
obtained the maximum available NFIP insurance, it did not obtain insurance available from
other carriers, and the $4 million it obtained is $48.9 million less than the amount Federal
regulations require. The Louisiana Insurance Commissioner has not completed the certification.
Additionally, the Louisiana Commissioner’s review is an evaluation of insurance availability and
affordability for Holy Cross not an evaluation of the adequacy of insurance coverage.




2
  This amount represents the total required flood insurance per the project worksheets for the six projects with
insurance requirements.
3
  NFIP offers a maximum of $500,000 each for building and contents coverage. Additional flood insurance for
amounts greater than $500,000 is available from private insurance providers.


    www.oig.dhs.gov                                      3                                       OIG-14-10-D
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

Grant Management for Monitoring Insurance Requirements Is Inadequate

GOHSEP did not adequately monitor Holy Cross’ compliance with FEMA’s Public Assistance
grant procedures. FEMA requires GOHSEP, as grantee, to ensure that Holy Cross obtained the
required amount of flood insurance or obtained an exemption. However, neither GOHSEP nor
Holy Cross started the process of filing an application for an exemption until November 2012.
GOHSEP did not take steps to ensure the proper amount of coverage because it did not have
procedures to monitor an applicant’s insurance coverage. In a June 2011 letter to GOHSEP,
FEMA emphasized that GOHSEP should seek exemptions for its grant recipients as soon as
possible. GOHSEP should, therefore, develop and implement written procedures to better
monitor its grant applicants and enforce the requirement to obtain and maintain adequate
insurance coverage and obtain exemptions promptly. GOHSEP officials stated that they sent a
March 2013 letter to all their applicants and had recently implemented procedures to ensure
better oversight of insurance requirements. Although GOHSEP officials sent a letter, it did not
follow up to ensure applicants obtained the required insurance or certification, and GOHSEP
does not have procedures in place to actively identify applicants without insurance in a timely
manner.


                                     RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region VI:

Recommendation #1: Disallow $48,879,429 ($52,879,429 required less $4,000,000 purchased)
for the replacement of buildings and their contents as ineligible, unless Holy Cross obtains the
required flood insurance coverage or a certification of insurance exemption from the State
insurance commissioner.

Recommendation #2: Require GOHSEP to develop and implement procedures to monitor and
enforce FEMA’s obtain-and-maintain insurance requirements.


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with Holy Cross officials during our audit and included
their comments in this report, as appropriate. We also provided a draft report in advance to
FEMA, GOHSEP, and Holy Cross officials and discussed it at exit conferences held with FEMA, Holy
Cross, and GOHSEP officials on September 11, 2013, and again with GOHSEP officials on
September 26, 2013. FEMA officials generally agreed with our findings and recommendations.
GOHSEP and Holy Cross officials generally disagreed with our findings and recommendations
and said they would complete the insurance certification within a short period of time.



   www.oig.dhs.gov                              4                                 OIG-14-10-D
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include the contact
information of responsible parties and any other supporting documentation necessary to
inform us about the current status of the recommendation. Until we receive and evaluate your
response, we will consider the recommendations to be open and unresolved.

Consistent with our responsibility under the InspectorfGeneralfAct,fwe will provide copies of our
report to appropriate congressional committees with oversight and appropriation responsibility
over the Department of Homeland Security. We will post the report on our website for public
dissemination.

Major contributors to this report are Christopher Dodd, Acting Director; Paige Hamrick, Audit
Manager; Jeffrey Campora, Senior Auditor; and John Polledo, Senior Auditor.

Please call me with any questions at (202) 254-4100 or your staff may contact
Christopher Dodd, Acting Director, Central Regional Office, at (214) 436-5200.




   www.oig.dhs.gov                             5                                  OIG-14-10-D
                                            OFFICE OF INSPECTOR GENERAL
                                                Department of Homeland Security


                                                                                                                    Exhibit

               Schedule of Holy Cross Projects Questioned for Inadequate Flood Insurance Coverage



                                                            Less Wind                                                Inadequate
                                                           Damage and                                                   Flood
Project                                 Gross Project     Non-Insurable           Required         Insurance          Insurance
Number             Description            Amounts           Amounts4           Flood Insurance     Obtained           Coverage
 12753        Gymnasium                  $12,650,999        (   4,171,198)         $8,479,801       $          05    $ 8,479,801
 12965        Main High School            14,541,175        (   1,634,397)         12,906,778           500,000       12,406,778
 13136        Central Services              7,970,166       (        65,522)         7,904,644          500,000         7,404,644
 13237        Middle School                14,018,670       (     620,166)         13,398,504           500,000       12,898,504
 13333        Main Administration         26,951,577        ( 21,033,840)            5,917,737          500,000         5,417,737
 18224        Building Contents6            4,557,192       (    285,227)            4,271,965       2,000,000          2,271,965
Totals                                   $80,689,779        ($27,810,350)         $52,879,429       $4,000,000       $48,879,429




          4
            Includes wind damage, direct administrative costs, and amounts FEMA deducted for actual or estimated
          insurance proceeds.
          5
            The gymnasium and central services buildings are on a common foundation; therefore, NFIP insurance is
          reflected on only one project.
          6
            Building contents applies to all four buildings.


              www.oig.dhs.gov                                    6                                      OIG-14-10-D
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

                                                                                             Appendix


                                        Report Distribution List

Department of Homeland Security
Acting Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS
Chief Privacy Officer

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Interim Director, FEMA Louisiana Recovery Office
Audit Liaison, FEMA Louisiana Recovery Office
Audit Liaison. FEMA Region VI
Audit Liaison, FEMA (Job Code G-11-064)

Recovery Accountability and Transparency Board
Director, Investigations, Recovery Accountability and Transparency Board

State
Director, Louisiana Governor’s Office of Homeland Security and Emergency Preparedness
Audit Liaison, Louisiana Governor’s Office of Homeland Security and Emergency Preparedness
Louisiana Legislative Auditor

Subgrantee
Headmaster, Holy Cross School
Chief Financial Officer, Holy Cross School

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform
House Committee on Transportation and Infrastructure



    www.oig.dhs.gov                                7                                OIG-14-10-D
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
